Peace Corps
Office of Inspector General




    Peace Corps office in Rabat




         Flag of Morocco



   Final Audit Report:
  Peace Corps/Morocco
                                  July 2009
   Final Audit Report:
  Peace Corps/Morocco
       IG-09-10-A




____________________________________
          Gerald P. Montoya
Assistant Inspector General for Audits




             July 2009
                           EXECUTIVE SUMMARY

This audit was performed in July 2008, and the results were briefed to management
August 6, 2008. Briefing slides detailing our findings were provided to Peace
Corps/Morocco and the regional director for Europe, Mediterranean, and Asia.

Peace Corps/Morocco’s financial and administrative operations were in compliance with
agency policy and federal regulations. In addition, internal control over post operations
was in place and effective. As a result, we are not making any recommendations in this
report. The following provides a summary of the audit findings.

Imprest Fund
The post did not perform quarterly imprest fund verifications, did not have an alternate
cashier, and the cashier did not personally set the combination to the safe. The post took
appropriate corrective action; therefore, we are making no recommendation at this time.

Property Management
The post did not maintain adequate separation of duties over management of the property
inventory records and performance of the physical inventory verification. We confirmed
that the post has taken action to strengthen internal controls over property management
including segregation of duties in key activities. Therefore, we are not making any
recommendations at this time.

Medical Supplies
The post did not maintain adequate separation of duties over its medical supplies.
Because of new guidance issued after our initial field work, we are not making any
recommendation at this time to allow the post to transition to the new guidance.

Personnel Management
The post did not include a copy of the most recent performance evaluations in the
personal services contractor (PSC) files and security clearances for some PSCs needed
updating. The post had already taken action to update security clearances and we
confirmed that all clearances were obtained. Therefore, we are not making any
recommendations at this time.

Our audit disclosed that the post was generally in compliance with Peace Corps policies
and federal regulations and internal control over certain operations was effective. Our
audit identified only minor deficiencies. The audit results can be attributed to the
proactive management approach of the country director and the post’s administrative
officer in place at the time of the audit fieldwork. We did not make any
recommendations. Since there are no recommendations contained in this report,
comments are not requested.




Preliminary Audit Report: Peace Corps/Morocco                                                i
                                                        Table of Contents

EXECUTIVE SUMMARY ................................................................................................. i

INTRODUCTION .............................................................................................................. 1

AUDIT RESULTS.............................................................................................................. 1
A. IMPREST FUND ........................................................................................................................................... 2

B. PROPERTY MANAGEMENT ......................................................................................................................... 4

C. MEDICAL SUPPLIES .................................................................................................................................... 5

D. PERSONNEL MANAGEMENT ....................................................................................................................... 6


POST STAFFING............................................................................................................... 9

APPENDIX A: OBJECTIVE, SCOPE, AND METHODOLOGY

APPENDIX A: LIST OF ACRONYMS

APPENDIX B: AUDIT COMPLETION AND OIG CONTACT
                                       INTRODUCTION

In accordance with Government Auditing Standards issued by the Comptroller General,
different forms of audit reports include written reports, letters, briefing slides, or other
presentation materials. Because only minor deficiencies were identified during our audit
and immediate corrective actions were taken, we did not make any recommendations. As
a result, we did not prepare a formal audit report, deeming it sufficient to present our
results to Peace Corps management using briefing slides on August 6, 2008. However,
the post has experienced turnover in key positions in recent months and has requested
that we issue a formal audit report.

The Office of Inspector General (OIG) performed an audit of Peace Corps/Morocco
covering the period October 1, 2004 – July 1, 2008. We conducted a site visit to Peace
Corps/Morocco July 1 – July 18, 2009.

The Peace Corps/Morocco program was established in 1963. Since the first Volunteers
arrived, over 3,800 Volunteers have served in Morocco. Currently there are 192
Volunteers working in four project areas: Environment, Health, Small Business
Development, and Youth Development.

Our overall objective in auditing overseas posts is to determine whether the financial and
administrative operations were functioning effectively and complying with Peace Corps
policies and federal regulations. Appendix A provides a full description of our audit
objective, scope, and methodology.

Since we are not making any recommendations in this report, we do not request
comments.


                                       AUDIT RESULTS

Our audit disclosed that the post was generally in compliance with Peace Corps policies
and federal regulations, and internal control over operations was effective. As a result we
identified only a few minor deficiencies.

The positive audit results can be attributed to the proactive management approach of the
country director and the post’s administrative officer. 1 In preparation for our audit, the
administrative officer systematically assessed the post’s operations to identify and correct
deficiencies and improve economy, efficiency and effectiveness of most financial and
administrative functions. This diligence was evidenced in our audit results, disclosing
there were only minor deficient conditions in four of 16 areas reviewed. Further, we

1
  The country director during the time of the audit fieldwork left the post September 2008, and the current
country director arrived at the post August 2008. The administrative office at the time of the audit
fieldwork left the post June 2009, and the current administrative officer arrived at the post July 2009.


Final Audit Report: Peace Corps/Morocco                                                                       1
determined that the post had taken or initiated corrective action on three of four areas
during the time of the audit fieldwork. The fourth deficient area was impacted by
changes in guidance for internal control over medical supplies and will be addressed
through implementation of the related new procedures. Therefore, this report contains no
recommendations. The following is a summary of our audit results:

Imprest Fund
The post did not perform quarterly imprest fund verifications, did not have an alternate
cashier, and the cashier did not personally set the combination to the safe. The post took
appropriate corrective action during the audit; therefore, we are making no
recommendation at this time.

Property Management
The post did not maintain adequate separation of duties over management of the property
inventory records and performance of the physical inventory verification. We confirmed
that the post had taken action to strengthen internal control over property management
including segregation of duties in key activities. Therefore, we are not making any
recommendations at this time.

Medical Supplies
The post did not maintain adequate separation of duties over its medical supplies. At the
time of our audit, the post had taken measures to correct this condition. New guidance on
internal control over medical supplies was issued after our field work was completed.
The significant changes in policy and procedures have likely resulted in other non-
compliance issues. However, we are not making any recommendations at this time to
allow the post to transition to the new guidance.

Personnel Management
The post did not include a copy of the most recent performance evaluations in the
personal services contractor (PSC) files and security clearances for some PSCs needed
updating. Prior to concluding our site visit the post had taken action to update security
clearances, and we confirmed that all clearances were obtained. Therefore, we are not
making any recommendations at this time.

A. IMPREST FUND

1. The country director did not perform the required quarterly imprest fund
   verification.

Peace Corps Manual (PCM) section 760.16.1 states:

       Fund Verification, which accounts for all funds advanced to the cashier, is
       a basic supervisory responsibility to assure protection of U.S. funds.
       Unannounced verifications must be completed on a monthly basis for all
       Class B cashiers and alternate cashiers. Monthly reconciliations are
       required for sub-cashier funds of U.S. $1,000 (LCU equivalent) or more;



Final Audit Report: Peace Corps/Morocco                                                      2
       quarterly reconciliations are required for sub-cashier funds of less than
       U.S. $1,000 (LCU equivalent).

       In rare instances, with a well documented justification explaining why
       reconciliation cannot be performed by the sub-cashier, the post may
       submit a waiver request to the Director of ARCM. If the Director of
       ARCM approves the waiver request, the waiver will be forwarded to the
       Director of the Office of Financial Policy and Management Control at the
       Department of State for a final decision.

       The country director is specifically responsible for conducting the
       verification at least once per quarter. The cashier supervisor/CVO may
       perform the verification during the other months.

Quarterly verifications were not performed because the country director opted to monitor
the imprest fund by reviewing the monthly verifications performed by the other
verification officers. Nevertheless, the post acknowledged this important internal control
and subsequent to the audit, was performing the required quarterly verifications.
Subsequent to our audit, we confirmed that that the verifications were performed as
required. Therefore, no recommendations are made.


2. The cashier did not personally set the combination to the imprest fund safe.

PCM section 760.9.4 states "The cashier must personally set the combination to the safe.
The security officer or technician is not authorized to set or know the combination of the
safe. The cashier must memorize the lock combination for the safe or other security
lock..."

The U.S. Department of State Foreign Affairs Handbook (4 FAH-3 H-317.3-2) states:

       The lock combination is changed by the employee to whom the equipment
       is assigned. When an employee having knowledge of a combination is
       succeeded in office, the successor employee changes the combination.
       When, due to emergency conditions, the safe is opened in the absence of
       the responsible employee, the responsible employee upon return to duty
       immediately changes the combination, and verifies the funds.
       It is the responsibility of the resident regional security officer or the post
       security officer to instruct the responsible employee in the technique for
       changing the safe combination.

Since cashiers are responsible for security over the imprest fund, they must be able to
efficiently change the safe combination annually, in instances where the fund is
temporarily transferred to an alternate cashier, or whenever the cashier deems it is
appropriate and necessary, without depending on the availability of an outside party.




Final Audit Report: Peace Corps/Morocco                                                   3
We found that the cashier had not personally set the combination to the safe used to
maintain cash related to the imprest fund. However, we confirmed that the post took
corrective action to require that the cashier change the combination to the safe.
Therefore, no recommendations are made.

3. The post did not have an alternate cashier.

PCM section 760.8.0 states:

       Each principal (Class B) cashier must have an alternate cashier at the same
       location. If assisting in regular cashier duties, the alternate must have his
       or her own safe or a separate drawer with a separate three-tumbler,
       government approved security lock in a shared safe.

       In most cases, an alternate cashier will only serve in the absence of the
       principal cashier, normally using funds from an interim advance from the
       Class B cashier. The country director or his/her designee must determine
       if the absence of the principal cashier will be of such length as to justify
       the transfer of the imprest funds to the alternate cashier. In such cases, a
       formal transfer of funds, including imprest fund reconciliation, must be
       accomplished and the combination of the safe must be changed.

In addition, PCM section 760.9.0 requires that cashiers be direct hire employees, either
foreign personnel or foreign service nationals (FSN); speak and read English fluently;
meet embassy security requirements; and have appropriate experience and abilities.
As indicated in Peace Corps policy, the alternate cashier must be a U.S. direct hire or
FSN.

At the time of audit, the country director and administrative officer had already
recognized the need for an alternate cashier and had taken appropriate action by
converting an existing employee to an FSN capable to performing alternate cashiering
duties.

We confirmed that the post had appointed an alternate cashier in accordance with Peace
Corps policy. As a result, we are not making any recommendations related to the
appointment of an alternate cashier.


B. PROPERTY MANAGEMENT

1. The post did not maintain adequate separation of duties over management of the
   property inventory records and performance of the physical inventory verification.

PCM section 511.5.6 states, “Individuals other than the Property Officer check database
property reports against physical inventory of property to confirm the existence of
property listed on the inventory record.”



Final Audit Report: Peace Corps/Morocco                                                    4
The general services officer (GSO) served as the property officer. The property officer is
responsible for receiving and properly recording new property in the property
management records. The property officer’s duties also include signing for all new
property, attaching the bar-code to the property, and recording property disposals.
However, the GSO also conducted the annual physical inventory verification. As a
result, the post lacked proper separation of duties in this area. The Government
Accountability Office, “Standards for Internal Control in the Federal Government,”
states:

       Key duties and responsibilities need to be divided or segregated among
       different people to reduce the risk of error or fraud. This should include
       separating the responsibilities for authorizing transactions, processing and
       recording them, reviewing the transactions, and handling any related
       assets. No one individual should control all key aspects of a transaction or
       event.

To ensure effective internal control and comply with Peace Corps and federal policy, an
individual assigned to conduct inventory counts must be independent of the inventory
management and recording process. Further, the individual assigned to perform an
inventory should not be an accountable property holder for the property they the
individual will physically count.

We confirmed that the post has taken action to strengthen internal controls over property
management including segregation of duties in key activities. Therefore, no
recommendations are made.

C. MEDICAL SUPPLIES

1. The post did not maintain adequate separation of duties over its medical supplies.

On November 26, 2008, Peace Corps updated PCM section 734 to improve internal
controls over medical supplies. This guidance was issued after our audit field work. The
updated guidance assigned a Medical Supply Inventory Control Clerk (MSIC) to perform
inventory responsibilities.

PCM section 734.3.4 states:

       The Medical Supply Inventory Control Clerk (MSIC Clerk) is designated
       by the country director. The MSIC Clerk maintains the Medical Inventory
       Control Log, which houses the inventory status of all medical supplies that
       are specially designated or controlled substances purchased, received, and
       stocked at post. The MSIC Clerk must be a person from outside the
       Medical Unit staff.

       The Acceptance Point Clerk (APC) is responsible for receiving medical
       supplies at post and coordinating their initial inventory and transfer to the
       Medical Unit. The APC works with both the MSIC Clerk and the PCMO


Final Audit Report: Peace Corps/Morocco                                                     5
       [Peace Corps Medical Officer] to ensure that medical supplies are
       delivered and inventoried. The APC must not be an individual assigned to
       the Medical Unit staff, and cannot serve as the MSIC Clerk. Further, the
       APC may not perform the quarterly inventory of medical supplies.

According to PCM section 734.3.5.3:

       The MSIC Clerk must maintain an accurate and complete set of inventory
       records for all medical supply items that are specially designated or
       controlled substances (Medical Inventory Control Log). . .

       The PCMO must use form PC-734C to record the item and quantity
       dispensed, to whom it was dispensed, and when dispensed. . .

       Copies of the PC-734C forms and disposal records should be sent to the
       MSIC Clerk at least monthly. Before providing copies of the form PC-
       734C to the MSIC Clerk or anyone other than Medical staff, the section of
       the form containing personally identifiable information must be removed
       and destroyed.

During the audit we found some issues regarding compliance with the guidance on
internal control over medical supplies. Although the post had taken appropriate
corrective action subsequent to our audit, significant changes in guidance have been
issued since our site visit. It is important that the post implement the revised Peace Corps
policy related to medical supplies in a timely manner. Adequate separation of duties is
critical to effective internal control and minimizes the risks associated with fraud, waste,
and abuse.

We confirmed that the post has begun implementation of the new guidance for medical
supplies. Since the guidance was issued after our initial field work, we are not making
any recommendations at this time to allow the post to transition to the new guidance and
until we have an opportunity to evaluate the post based upon the new guidance.

D. PERSONNEL MANAGEMENT

1. The post did not include a copy of the most recent performance evaluations in the
   personal services contractor (PSC) files.

PCM section 743.19 states:
       It is U.S. Government policy that a PSC's performance be evaluated
       during and at the completion of each contract. Only complete and
       objective written performance evaluations may be utilized in the
       acquisition process to access the PSC's past performance and in
       considering the contractor for future awards.




Final Audit Report: Peace Corps/Morocco                                                    6
       All PSCs will be evaluated by the country director, or another Peace Corps
       employee designated by the country director, during and at the completion
       of their in-country work. A copy of the evaluation should be maintained
       by the country director. . .

Five of 35 PSC files we reviewed did not contain a copy of the employee’s most current
performance evaluation.

PCM section 743 includes attachment F, “Personal Service Contract File Checklist.”
This checklist assists posts in identifying and including all necessary information in PSC
files. The checklist includes statement of work, competition documents, security
clearance, and intelligence background certification. Although two of the 14 PSC files
reviewed contained a checklist, it was not the most current version.

Evaluations are essential for determining whether PSCs are fulfilling the duties assigned
in their contracts. The evaluations also assist in identifying developmental needs.
Without proper documentation, the country director may be unable to justify employee
promotions, terminations, and other administrative actions. Additionally, use of the
Personal Service Contract File Checklist is an effective management tool to ensure
compliance with Peace Corps policy.

During the field work, the post took action to complete the performance evaluations. We
confirmed that the PSCs’ evaluations were updated. Therefore, no recommendations are
made.

2. Security clearances for some personal services contractors were not on file or
   needed updating.

PCM section 743.8 states:
       Foreign nationals are not permitted access to classified information or
       material. Also, the country director must request the Embassy Security
       Officer to conduct an appropriate investigation of a proposed PSC prior to
       executing a Personal Services Contract with a foreign national.

Upon the post’s request, the embassy security officer conducts an investigation and issues
security clearances if the employee receives a favorable investigative report. The
security clearances are valid for five years and list the expiration date on the form
provided to the Peace Corps.

Executive Order 10450 states, “The interests of the national security require that all
persons privileged to be employed in the departments and agencies of the Government,
shall be reliable, trustworthy, of good conduct and character, and of complete and
unswerving loyalty to the United States.” Security clearances are necessary to safeguard
Peace Corps information and resources from untrustworthy or unreliable individuals.
Maintaining current security clearances provides reasonable assurance that PSCs are in
fact reliable, trustworthy, and of good conduct and character.


Final Audit Report: Peace Corps/Morocco                                                      7
During our review of 35 PSC and FSN files, we determined that three PSC files did not
contain a security clearance and five of the security clearances on file were more than
five years old. However, the post had already requested updated security clearances for
the PSCs in question. We have since confirmed that the clearances have been updated.
Therefore, no recommendations are made.




Final Audit Report: Peace Corps/Morocco                                                   8
                                 POST STAFFING
At the time of our visit, the post had 40 staff positions: three U.S. direct hire (USDH)
employees, two FSNs, and 35 PSCs. The following lists the Peace Corps Morocco staff
as of July 1, 2009.
                                   PC/Morocco’s Positions

           Director                                                USDH
           Executive Assistant & SPA Coordinator                   PSC
           Safety and Security Coordinator                         PSC
           Program and Training Officer                            USDH
           Youth Development Program Manager                       PSC
           Youth Development Program Assistant                     PSC
           Health Program Manager                                  PSC
           Health Program Assistant                                PSC
           Environment Program Manager                             PSC
           Environment Program Assistant                           PSC
           Small Business Dev. Program Manager                     PSC
           Small Business Dev. Program Assistant                   PSC
           Training Manager                                        PSC
           Homestay Coordinator                                    PSC
           Language & Cross-Culture Coordinator (2)                PSC
           APCD/Admin.                                             USDH
           Financial Assistant (Retired FSN and under contract)    PSC
           Financial Assistant                                     FSN
           Admin Assistant and Volunteer Support                   PSC
           Cashier                                                 FSN
           PCMC(3)                                                 PSC
           Medical Secretary                                       PSC
           Information Resource Coordinator                        PSC
           Information Technology Specialist                       PSC
           General Service Officer                                 PSC
           General Service Assistant                               PSC
           Admin Assistant/Receptionist                            PSC
           Driver (3)                                              PSC
           Mail Clerk                                              PSC
           Maintenance                                             PSC
           Guard (5)                                               PSC



Final Audit Report: Peace Corps/Morocco                                                    9
APPENDIX A


            OBJECTIVE, SCOPE, AND METHODOLOGY

Our objective in auditing overseas posts is to determine whether the financial and
administrative operations are functioning effectively and comply with Peace Corps
policies and federal regulations. Our audit conclusions are based on information from
three sources: (1) document and data analysis, (2) interviews, and (3) direct observation.
Our audits are conducted in accordance with the government auditing standards
prescribed by the Comptroller General of the United States.

The audit of Peace Corps/Morocco covered the period October 1, 2004 – May 31, 2008.
While at the post, we interviewed key staff: the country director, the administrative
officer, staff responsible for administrative support, and the medical officer. At the end
of our audit, we briefed the country director and administrative officer. At headquarters,
we conducted a general briefing for regional staff.

We relied on computer-processed data from the post’s accounting system. While we did
not test the system’s controls, we believe the information generated by the system and
used by us was sufficiently reliable for our audit objective. In addition, we reviewed
physical documentation for the transactions provided from the accounting system and did
not identify any discrepancies.

Our audit criteria were derived from the following sources: the Peace Corps Manual, the
Overseas Financial Management Handbook, current Peace Corps initiatives and policies,
and other federal regulations.


                             LIST OF ACRONYMS

FSN                                                             Foreign Service National
FY                                                                            Fiscal Year
GSO                                                              General Services Officer
MSIC                                                   Medical Supply Inventory Control
OFMH                                           Overseas Financial Management Handbook
PCM                                                                 Peace Corps Manual
PCMO                                                        Peace Corps Medical Officer
PSC                                                         Personal Services Contractor
USDH                                                            United States Direct Hire
APPENDIX B


        AUDIT COMPLETION AND OIG CONTACT

AUDIT COMPLETION   The audit was performed by auditor Gerald P. Montoya,
                   Assistant Inspector General for Audit.

OIG CONTACT
                   If you wish to comment on the quality or usefulness of this
                   report to help us strengthen our product, please e-mail
                   Gerald P. Montoya, Assistant Inspector General for Audit,
                   at gmontoya@peacecorps.gov, or call him at
                   (202) 692-2907.
          REPORT FRAUD, WASTE, ABUSE,
             AND MISMANAGEMENT

Fraud, waste, abuse, and mismanagement in government affect
everyone from Peace Corps Volunteers to agency employees to the
general public. We actively solicit allegations of inefficient and
wasteful practices, fraud, and abuse related to Peace Corps
operations domestically or abroad. You can report allegations to
us in several ways, and you may remain anonymous.




Mail:          Peace Corps
               Office of Inspector General
               P.O. Box 57129
               Washington, DC 20037-7129

Phone:         24-Hour Toll-Free:                  (800) 233-5874
               Washington Metro Area:              (202) 692-2915


Fax:           (202) 692-2901

E-Mail:        oig@peacecorps.gov
